LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

February 25, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

NEAL N. BROWDER, CITY OF SAN DIEGO, AND SHELLEY ZIMMERMAN V. S.R.
NEHAD, K.R. NEHAD, AND ESTATE OF FRIDOON RAWSHAN NEHAD

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on February
25, 2020, I caused service to be made pursuant to Rule 29 on the following counsel for
the Respondents:
RESPONDENTS:
Daniel Miller
Sean McKissick
MILLER BARONDESS LLP
1999 Avenue of the Stars, Suite 1000
Los Angeles, CA 90067
(310) 552-4400
dmiller@millerbarondess.com
smckissick@millerbarondess.com
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 25th day of February 2020.

